         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
Department of Energy's Uranium
Enrichment Decontamination and
Decommissioning Fund's Fiscal Year
2012 Financial Statement Audit




OAS-FS-14-07                       March 2014
                                  Department of Energy
                                    Washington, DC 20585
                                        March 20, 2014


MEMORANDUM FOR THE SENIOR ADVISOR FOR ENVIRONMENTAL MANAGEMENT


FROM:                     Rickey R. Hass
                          Deputy Inspector General
                            for Audits and Inspections
                          Office of Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Department of Energy's Uranium
                          Enrichment Decontamination and Decommissioning Fund's Fiscal Year
                          2012 Financial Statement Audit"

The attached report presents the results of the independent certified public accountants' audit of
the Department of Energy's (Department) Uranium Enrichment Decontamination and
Decommissioning Fund's (D&D Fund) Fiscal Year 2012 balance sheets and the related
statements of net cost, changes in net position and budgetary resources.

To fulfill the Office of Inspector General's audit responsibilities, we contracted with the
independent public accounting firm of KPMG, LLP (KPMG) to conduct the audit, subject to our
review. KPMG is responsible for expressing an opinion on the D&D Fund's financial statements
and reporting on applicable internal controls and compliance with laws and regulations. The
OIG monitored audit progress and reviewed the audit report and related documentation. This
review disclosed no instances in which KPMG did not comply, in all material respects, with
generally accepted Government auditing standards. The OIG did not express an independent
opinion on the D&D Fund's financial statements.

KPMG concluded that the financial statements present fairly, in all material respects, the
financial position of the D&D Fund as of September 30, 2012 and 2011, and its net costs,
changes in net position, and budgetary resources for the years then ended, in conformity with
United States generally accepted accounting principles.

As part of this review, the auditors also considered the D&D Fund's internal controls over
financial reporting. The audit identified a deficiency, related to recording of environmental
liabilities that is considered to be a material weakness, and other deficiencies, related to
unclassified network and information systems security that is considered to be a significant
deficiency. The following material weakness and significant deficiency were noted in the report:

   •   Environmental Liabilities – A deficiency was identified over the D&D Fund's
       management review procedures to prevent and detect errors and omissions in
       environmental liabilities. Even though the D&D Fund established additional control
            procedures in Fiscal Year 2012, misstatements were identified that indicated a continuing
            reasonable possibility that a material misstatement would not be prevented, detected and
            corrected on a timely basis.

      •     Unclassified Network and Information Systems Security – Deficiencies over network
            vulnerabilities and weaknesses in access and other security controls in the Department's
            unclassified computer information systems were identified. The identified weaknesses
            and vulnerabilities increase the risk that malicious destruction or alteration of data or
            unauthorized processing could occur.

The auditors' tests of compliance with certain provisions of laws, regulations and contracts
disclosed no instances of noncompliance or other matters that are required to be reported under
Government Auditing Standards or applicable Office of Management and Budget Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended.


                                                                          Report No.: OAS-FS-14-07

Attachment

cc:       Deputy Assistant Secretary for Program Planning and Budget, EM-60
          Deputy Chief Financial Officer, CF-2
          Director, Office of Finance and Accounting, CF-10
          Acting Director, Office of Financial Risk, Policy and Controls, CF-50
          Assistant Director, Office of Financial Risk, Policy and Controls, CF-50
          Audit Resolution Specialist, Office of Financial Risk, Policy and Controls, CF-50
          Team Leader, Office of Financial Risk, Policy and Controls, CF-50




                                                     2
                                                   Attachment




   UNITED STATES DEPARTMENT OF ENERGY
  OFFICE OF ENVIRONMENTAL MANAGEMENT
URANIUM ENRICHMENT DECONTAMINATION AND
          DECOMMISSIONING FUND
                Financial Statements

            September 30, 2012 and 2011

    (With Independent Auditors’ Reports Thereon)
                                                               Attachment (continued)




                           UNITED STATES DEPARTMENT OF ENERGY
                          OFFICE OF ENVIRONMENTAL MANAGEMENT
                        URANIUM ENRICHMENT DECONTAMINATION AND
                                  DECOMMISSIONING FUND


                                           Table of Contents



                                                                                 Page

Overview                                                                            1

Independent Auditors’ Report:                                                       5

   Exhibit I                                                                       10

   Exhibit II                                                                      11

   Exhibit III                                                                     14

Financial Statements:

   Balance Sheets                                                                  15

   Statements of Net Cost                                                          16

   Statements of Changes in Net Position                                           17

   Statements of Budgetary Resources                                               18

Notes to Financial Statements                                                      19

Required Supplementary Information                                                 31
                                                                                    Attachment (continued)




The Energy Policy Act of 1992 (Energy Policy Act) established the United States (U.S.) Department of Energy’s
(the Department) Uranium Enrichment Decontamination and Decommissioning Fund (D&D Fund) to pay for the
costs of decontaminating and decommissioning three gaseous diffusion facilities (Diffusion Facilities) located in
Oak Ridge, Tennessee; Paducah, Kentucky; and Portsmouth, Ohio. The Energy Policy Act also authorized the
D&D Fund to pay remedial action costs associated with the U.S. Government (Government) operation of the
Diffusion Facilities to the extent funds are available and to reimburse uranium and thorium licensees for the costs
of decontaminating, decommissioning, reclamation, and other remedial actions, which are incident to sales to the
Government.

The Energy Policy Act, as amended, authorizes the collection of revenues for 15 years to pay for the
environmental remediation costs. Balances in the D&D Fund were to be invested in Treasury securities, and any
interest earned would be available to pay the costs of environmental remediation.

The Energy Policy Act, as amended, specifies annual revenues as follows: $480.0 million for the period from
Fiscal Year (FY) 1992 to FY 1998; $488.3 million for the period from FY 1999 to FY 2001; and $518.2 million
for FY 2002 through FY 2007. The revenues are to be obtained from:

•   An assessment on domestic utilities up to $150 million annually based on the ratio of their purchases of
    separative work units to the total purchases from the Department including those for defense; and

•   Government appropriations for the difference between the authorized funding required by the Energy Policy
    Act and the utility assessment.

Government contributions to the D&D Fund were scheduled to end with the FY 2007 contribution. However,
Government appropriations and resulting Government contributions through September 30, 2007 were
approximately $918.6 million less than authorized by the Energy Policy Act. The ability of the D&D Fund to
fulfill its responsibilities is contingent upon the receipt of these contributions. Therefore, the Department
continued to ask Congress for annual Government contributions to meet the Government’s obligation. Congress
provided additional contributions in FYs 2008 and 2009, and also designated $390 million of FY 2009 American
Recovery and Reinvestment Act (ARRA) funding for the D&D Fund’s cleanup mission. These follow-on actions
satisfied the Government’s original obligation to the D&D Fund. Although the Government satisfied its original
obligation to the D&D Fund in FY 2009, the Department continued through FY 2011 to ask Congress for annual
contributions to help offset lost interest earnings that resulted from the Government not making its required
contributions to the D&D Fund within the prescribed time frame.

The ARRA funding is a separate appropriation from the D&D Fund and is not available for investment in
Treasury securities like the normal D&D Fund appropriations. Therefore, the ARRA funding is neither a deposit
into the D&D Fund nor additional spending authority from the D&D Fund. The ARRA funding does, however,
function as a contribution to the D&D Fund’s cleanup mission by paying for work scope that would otherwise
have to be paid from the D&D Fund. Since the ARRA funding provides a dollar-for-dollar reduction in the
required future outlays from the D&D Fund’s invested balances, the Department recognizes the $390 million of
ARRA funding as an offset to the Government’s contribution shortfall.
                                                                                    Attachment (continued)




The Office of Environmental Management (EM) within the Department is responsible for oversight of the
resources of the D&D Fund and environmental remediation activities at the Diffusion Facilities. The Diffusion
Facilities have approximately 40 million square feet of floor space under 500 acres of roof containing processing
and handling equipment, which will be remediated under the D&D Fund. The Oak Ridge Office, Oak Ridge,
Tennessee, and the Portsmouth/Paducah Project Office, Lexington, Kentucky, provide day-to-day management
of D&D Fund activities. Budgeting, accounting, contracting, and other activities are supported through matrix
organizations in the Department.

The Office of Disposal Operations (EM-43) is responsible for managing the Title X Uranium/Thorium
Reimbursement Program. The Environmental Management Consolidated Business Center (EMCBC) is
responsible for evaluating claims submitted by the uranium and thorium licensees and making reimbursement
recommendations to EM-43. The Defense Contract Audit Agency provides support for financial audits of the
claims.

The Department is currently unable to estimate the impact of certain factors on the recorded liabilities and the
receipt of future Government appropriations by the D&D Fund. More specifically, the following are significant
uncertainties impacting the D&D Fund:

•   Because the decontamination and decommissioning work is scheduled to be completed in approximately
    2024 at the gaseous diffusion facility located in Oak Ridge and the decontamination and decommissioning
    work at the Paducah and Portsmouth gaseous diffusion facilities is currently estimated to extend until 2044,
    the length of time over which the work will be performed creates significant uncertainty as to the actual cost
    of the work. In addition, because the estimates on which the recorded decontamination and decommissioning
    and remedial action liabilities are based do not include an estimate of the impact of inflation on such costs,
    the actual costs may be significantly higher than the recorded liabilities. There is also uncertainty with
    respect to whether Congressional appropriations will be received at the levels assumed by the estimates, and
    there is uncertainty inherent in the estimating process.

•   The Energy Policy Act provides that the annual cost of remedial action at the Diffusion Facilities will be paid
    from the D&D Fund to the extent the amount available in the D&D Fund is sufficient. To the extent the
    amount in the D&D Fund is insufficient to pay remedial action costs, the Energy Policy Act provides that the
    Department will be responsible for such costs. The use of the D&D Fund for remedial action activities will
    impact the availability of funds to accomplish decontamination and decommissioning.

Program Performance Measures

The program performance measures are the current metric for evaluating progress in EM. Under these program
performance measures, environmental restoration progress is measured as the number of “release sites”
completed and the number of “facilities” decommissioned.
                                                                                   Attachment (continued)




A “release site” is defined as a unique location where a hazardous, radioactive, or mixed waste release has
occurred or is suspected to have occurred. It is usually associated with an area where wastes or substances
contaminated with wastes have been disposed of, treated, stored, and/or used. A “facility” is generally defined as
a uniquely identifiable building or structure. Sometimes a facility is a room or part of a building or structure.

A release site is completed or a facility decommissioned when the documentation supporting a “no action”
decision or the completion of physical cleanup has been submitted to regulatory authorities.

The following summarizes the performance measures for D&D Fund projects in FY 2012:

                                                                             Planned            Completed
Release site completion                                                               1                  —    
Facility completion                                                                  13                  12   


Oak Ridge planned and completed eight facilities, and no release sites were planned. Paducah targeted one
facility that was not completed due to funding constraints. Paducah did not target any release sites. Portsmouth
planned and completed four facilities. Portsmouth targeted one release site that was not completed due to funding
being redirected.

Financial Performance Measures

The Department is required to collect payments from appropriations, invest excess cash, and make disbursements
from the D&D Fund in accordance with the requirements of the Energy Policy Act. One financial performance
measure is used to assess performance:

•   No excess uninvested daily cash balances

There were no instances of excessive uninvested daily cash balances during both FY 2012 and FY 2011.

During FY 2012 and FY 2011, the D&D Fund earned approximately 2.49% and 3.01%, respectively, from
investments in Treasury securities.

Financial Statement Limitations

The accompanying financial statements were prepared to report the financial position and results of operations of
the D&D Fund pursuant to the requirement of the Energy Policy Act.

While the statements have been prepared from the books and records of the D&D Fund in accordance with
accounting principles generally accepted in the United States of America, the statements are different from the
financial reports used to monitor and control budgetary resources that are prepared from the same books and
records.
                                                                                    Attachment (continued)




The statements should be read with the realization that they relate to the D&D Fund owned and managed by the
Government, a sovereign entity; that unfunded liabilities reported in the financial statements cannot be liquidated
without the enactment of appropriations; and that the payment of all liabilities, other than those resulting from
contractual obligations, can be abrogated by the Government.

Analysis of Systems, Controls, and Legal Compliance

Analysis of systems, controls, and legal compliance is performed, reported, and audited at the Departmental
level. The results of these reviews and assessments are incorporated in the Department’s Performance and
Accountability Report.

Federal Managers’ Financial Integrity Act

The Federal Managers’ Financial Integrity Act (FMFIA) of 1982 requires that agencies establish internal control
and financial systems to provide reasonable assurances that the integrity of Federal programs and operations are
protected. Furthermore, it requires that the head of the agency provide an annual assurance statement on whether
the agency has met this requirement and whether any material weaknesses exist.

In response to the FMFIA, the Department developed an internal control program that holds managers
accountable for the performance, productivity, operations, and integrity of their programs through the use of
management controls. Annually, senior managers at the Department are responsible for evaluating the adequacy
of the internal controls surrounding their activities and determining whether they conform to the principles and
standards established by the Office of Management and Budget and the Government Accountability Office. The
results of these evaluations and other senior management information are used to determine whether there are
any internal control problems to be reported as material weaknesses. The Departmental Internal Control and
Audit Review Council, the organization responsible for oversight of the Management Control Program, makes
the final assessment and decision for the Department.
                                                                                         Attachment (continued)


                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                         Independent Auditors’ Report


Office of Inspector General and Office of Environmental Management
United States Department of Energy:

We have audited the accompanying balance sheets of the Department of Energy (the Department) Uranium
Enrichment Decontamination and Decommissioning Fund (D&D Fund) as of September 30, 2012 and
2011, and the related statements of net cost, changes in net position, and budgetary resources (hereinafter
referred to as “financial statements”) for the years then ended. The objective of our audits was to express an
opinion on the fair presentation of these financial statements. In connection with our fiscal year (FY) 2012
audit, we also considered the D&D Fund’s internal control over financial reporting and tested the D&D
Fund’s compliance with certain provisions of applicable laws, regulations, and contracts that could have a
direct and material effect on these financial statements.

Summary
As stated in our opinion on the financial statements, we concluded that the D&D Fund’s financial
statements as of and for the years ended September 30, 2012 and 2011 are presented fairly, in all material
respects, in conformity with U.S. generally accepted accounting principles.

Our consideration of internal control over financial reporting resulted in identifying a deficiency, related to
recording of environmental liabilities, that we consider to be a material weakness, and a deficiency, related
to unclassified network and information systems security, that we consider to be a significant deficiency, as
defined in the Internal Control Over Financial Reporting section of this report.

The results of our tests of compliance with certain provisions of laws, regulations, and contracts disclosed
no instances of noncompliance or other matters that are required to be reported under Government Auditing
Standards, issued by the Comptroller General of the United States, and Office of Management and Budget
(OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.

The following sections discuss our opinion on the D&D Fund’s financial statements; our consideration of
the D&D Fund’s internal control over financial reporting; our tests of the D&D Fund’s compliance with
certain provisions of applicable laws, regulations, and contracts; and management’s and our
responsibilities.

Opinion on the Financial Statements
We have audited the accompanying balance sheets of the D&D Fund as of September 30, 2012 and 2011,
and the related statements of net cost, changes in net position, and budgetary resources for the years then
ended.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the D&D Fund as of September 30, 2012 and 2011, and its net costs, changes in net
position, and budgetary resources for the years then ended, in conformity with U.S. generally accepted
accounting principles.



                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                                                                              Attachment (continued)




As discussed in Note 1.m. to the financial statements, the D&D Fund changed its presentation for reporting
the Statement of Budgetary Resources in fiscal year 2012, based on new reporting requirements under
OMB Circular No. A-136, Financial Reporting Requirements. As a result, the D&D Fund’s Statement of
Budgetary Resources for fiscal year 2011 has been adjusted to conform to the current year presentation.

As discussed in note 4 to the financial statements, the D&D Fund has recorded a liability of approximately
$13,463 million and $14,091 million at September 30, 2012 and 2011, respectively, to decontaminate and
decommission the gaseous diffusion facilities (Diffusion Facilities) located in Oak Ridge, Tennessee;
Paducah, Kentucky; and Portsmouth, Ohio. However, the Department is presently unable to determine the
impact of time and inflation on the liability for decontamination and decommissioning costs. Because the
decontamination and decommissioning work at the gaseous diffusion facility located in Oak Ridge is
scheduled to be completed in FY 2024 and the decontamination and decommissioning work at the Paducah
and Portsmouth gaseous diffusion facilities is currently estimated to extend until 2044, the length of time
over which the work will be performed and the uncertainty inherent in the estimating process create
significant uncertainty as to the actual cost of the work. In addition, because the estimate on which the
recorded liability is based does not include an estimate of the impact of inflation on such costs, the actual
costs may be significantly higher than the recorded liability.

As discussed in note 5 to the financial statements, the Energy Policy Act of 1992 (Energy Policy Act)
provides for payment from the D&D Fund of the annual cost of remedial action at the Diffusion Facilities
to the extent the amount available in the D&D Fund is sufficient. To the extent the amount available in the
D&D Fund is insufficient to pay remedial action costs, the Energy Policy Act provides that the
Department, not the D&D Fund, will be responsible for such costs. Because the Department may be
responsible for remedial action costs, the D&D Fund’s recorded liability for remedial action at
September 30, 2012 consists of the funding for such costs provided by Congress in the D&D Fund
appropriation for FY 2013, $106 million, plus the unexpended portion of such appropriations for current
and previous fiscal years, $5 million. The D&D Fund’s recorded liability for remedial action at
September 30, 2011 consists of the funding for such costs provided by Congress in the D&D Fund
appropriation for FY 2012, $76 million, plus the unexpended portion of such appropriations for current and
previous fiscal years, $14 million. The D&D Fund will make additional accruals of remedial action costs if
Congress appropriates additional funds for that purpose. The estimated future cost of remedial action at the
Diffusion Facilities, which is only recorded in the accompanying financial statements to the extent
described above, is approximately $2,744 million and $2,668 million as of September 30, 2012 and 2011,
respectively. The remaining liability for the estimated future cost of remedial action at the Diffusion
Facilities is recorded by the Department. Subsequent to September 30, 2012, the Paducah life cycle cost
estimate was revised to reflect an extension of the remedial action completion date from FY 2019 to
FY 2032. The potential impact on the environmental liability balances for Paducah is an increase of
approximately $900 million, which will be updated as more information becomes available. The estimate
does not include an estimate of the impact of inflation on the cost of the work; therefore, the actual cost
may be significantly higher than the estimate. There is also uncertainty with respect to whether
Congressional appropriations will be received at the level assumed by the estimate, and there is uncertainty
inherent in the estimating process. The Department is presently unable to determine the impact of these
factors on the estimated remedial action costs.

U.S. generally accepted accounting principles require that the information in the Overview and Required
Supplementary Information sections be presented to supplement the basic financial statements. Such
information, although not a part of the basic financial statements, is required by the Federal Accounting
Standards Advisory Board, who considers it to be an essential part of financial reporting for placing the
basic financial statements in an appropriate operational, economic, or historical context. We have applied
certain limited procedures to the required supplementary information in accordance with auditing standards
generally accepted in the United States of America, which consisted of inquiries of management about the
                                                                                Attachment (continued)




methods of preparing the information and comparing the information for consistency with management’s
responses to our inquiries, the basic financial statements, and other knowledge we obtained during our
audits of the basic financial statements. We do not express an opinion or provide any assurance on the
information because the limited procedures do not provide us with sufficient evidence to express an
opinion or provide any assurance.

Internal Control Over Financial Reporting
Our consideration of the internal control over financial reporting was for the limited purpose described in
the Responsibilities section of this report and was not designed to identify all deficiencies in internal
control over financial reporting that might be significant deficiencies or material weaknesses and therefore,
there can be no assurance that all deficiencies, significant deficiencies, or material weaknesses have been
identified. However, in our fiscal year 2012 audit, we identified a deficiency in internal control over
financial reporting that we consider to be a material weakness and a deficiency that we consider to be a
significant deficiency.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or combination of
deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the D&D Fund’s financial statements will not be prevented, or detected and corrected on a timely basis.
We consider the deficiency described below and in more detail in Exhibit I to be a material weakness.

•   Environmental liabilities – We identified a deficiency in the D&D Fund’s management review
    procedures to prevent and detect errors and omissions in environmental liabilities. This deficiency
    resulted in a material misstatement of the environmental liabilities that was corrected in the FY 2011
    financial statements. Even though the D&D fund established additional control procedures in FY 2012,
    we identified misstatements in FY 2012 indicating that there is a continuing reasonable possibility that
    a material misstatement will not be prevented, or detected and corrected on a timely basis. The D&D
    Fund should establish additional control procedures related to recording of environmental liabilities to
    ensure that recorded amounts are accurate, complete, and supported by appropriate documentation.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less
severe than a material weakness, yet important enough to merit attention by those charged with
governance. We consider the deficiency described below and in more detail in Exhibit II to be a significant
deficiency.

•   Unclassified network and information systems security – We noted network vulnerabilities and
    weaknesses in access and other security controls in the Department’s unclassified computer
    information systems. The identified weaknesses and vulnerabilities increase the risk that malicious
    destruction or alteration of data or unauthorized processing could occur. The Department should fully
    implement policies and procedures to improve its network and information systems security.

Exhibit III presents the status of the prior year material weakness and significant deficiencies.

Compliance and Other Matters
The results of our tests of compliance as described in the Responsibilities section of this report disclosed
no instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04, as amended.

                                                 *******
                                                                             Attachment (continued)




Responsibilities
Management’s Responsibilities. Management is responsible for the financial statements; establishing and
maintaining effective internal control over financial reporting; and complying with laws, regulations, and
contracts applicable to the D&D Fund.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2012 and 2011
financial statements of the D&D Fund based on our audits. We conducted our audits in accordance with
auditing standards generally accepted in the United States of America; the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General of the United
States; and OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04 require that we plan
and perform the audits to obtain reasonable assurance about whether the financial statements are free of
material misstatement. An audit includes consideration of internal control over financial reporting as a
basis for designing audit procedures that are appropriate in the circumstances, but not for the purpose of
expressing an opinion on the effectiveness of the D&D Fund’s internal control over financial reporting.
Accordingly, we express no such opinion.

An audit also includes:

•     Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
      statements;
•     Assessing the accounting principles used and significant estimates made by management; and
•     Evaluating the overall financial statement presentation.
We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2012 audit, we considered the D&D Fund’s internal control
over financial reporting by obtaining an understanding of the D&D Fund’s internal control, determining
whether internal controls had been placed in operation, assessing control risk, and performing tests of
controls as a basis for designing our auditing procedures for the purpose of expressing our opinion on the
financial statements, but not for the purpose of expressing an opinion on the effectiveness of the D&D
Fund’s internal control over financial reporting. Accordingly, we do not express an opinion on the
effectiveness of the D&D Fund’s internal control over financial reporting. We did not test all controls
relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of
1982.

As part of obtaining reasonable assurance about whether the D&D Fund’s fiscal year 2012 financial
statements are free of material misstatement, we performed tests of the D&D Fund’s compliance with
certain provisions of laws, regulations, and contracts, noncompliance with which could have a direct and
material effect on the determination of the financial statement amounts, and certain provisions of other
laws and regulations specified in OMB Bulletin No. 07-04, as amended. We limited our tests of
compliance to the provisions described in the preceding sentence, and we did not test compliance with all
laws, regulations, and contracts applicable to the D&D Fund. However, providing an opinion on
compliance with laws, regulations, and contracts was not an objective of our audit and, accordingly, we do
not express such an opinion.

The D&D Fund’s written responses to the findings identified in our audit and presented in Exhibit I and
Exhibit II were not subjected to the auditing procedures applied in the audit of the D&D Fund’s financial
statements and, accordingly, we express no opinion on them.
                                                                          Attachment (continued)




This report is intended solely for the information and use of the D&D Fund’s management, the
Department’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




February 7, 2014
                                                                             Attachment (continued)




                                     Independent Auditors’ Report
                                     Exhibit I – Material Weakness


Environmental Liability Estimates (Finding 10-EM-01)
We identified a deficiency in the Decontamination and Decommissioning (D&D) Fund’s internal controls
over recording environmental liabilities related to decontamination and decommissioning and remedial
action. The control deficiency resulted in a misstatement of environmental liabilities that was corrected in
the FY 2012 financial statements. The misstatement was caused by a calculation error related to the
Portsmouth Paducah Project Office (PPPO) environmental liability estimates. PPPO incorrectly calculated
the contingency amount for the D&D and Remedial Action liability estimates.
This error resulted in an overstatement of the D&D liability of approximately $34 million in the D&D
Fund financial statements and an understatement of the Future Remedial Action footnote disclosure of
approximately $34 million in the notes to the D&D Fund financial statements as of September 30, 2012.
We also noted similar deficiencies and misstatements during the FY 2011 and FY 2010 audits. The D&D
Fund overstated the D&D liability by approximately $171 million and understated the Future Remedial
Action footnote disclosure by approximately $175 million as of September 30, 2011 due to spreadsheet
errors and omissions of adjustments. The D&D Fund overstated the D&D liability by approximately
$26 million as of September 30, 2010 due to spreadsheet errors. Even though the D&D fund established
additional control procedures in FY 2012, we identified misstatements in FY 2012 indicating that there is a
continuing reasonable possibility that a material misstatement will not be prevented, or detected and
corrected on a timely basis.
Recommendation
We recommend that the D&D Fund Manager, in conjunction with the Financial Management Analyst at
PPPO, strengthen and follow established procedures and controls related to recording of environmental
liabilities to ensure that recorded amounts are accurate, complete, and supported by appropriate
documentation.
Management’s Response
Concur. Oak Ridge and PPPO will work together to develop a more detailed procedure that is specific to
the calculation of the D&D and remedial action liabilities.
                                                                             Attachment (continued)




                                     Independent Auditors’ Report
                                   Exhibit II – Significant Deficiency


Unclassified Network and Information Systems Security (Finding numbers reported separately in
DOE consolidated financial statement management letter – information technology dated
December 21, 2012)
The United Sates Department of Energy (the Department or DOE) uses a series of interconnected
unclassified networks and information systems. Federal and Departmental directives, included in DOE
Order 205.1B, Department of Energy Cyber Security Program, require the establishment and maintenance
of security over unclassified information systems, including financial management systems. Past audits
identified significant weaknesses in selected systems and devices attached to the computer networks at
some Department sites. The Department has implemented corrective actions to address many of the
identified weaknesses at the sites whose security controls we, and the Department’s Office of Health,
Safety, and Security, reviewed in prior years. However, at the time of our testing, these corrective actions
had not been completed. The frequency of network security weaknesses reported by KPMG has decreased
when compared to the prior year weaknesses, but remains slightly higher than fiscal year (FY) 2010. The
severity of these weaknesses remains consistent with prior year weaknesses. The Department recognizes
the need to enhance its unclassified cybersecurity program and has categorized unclassified cybersecurity
as a leadership challenge in its Federal Managers’ Financial Integrity Act assurance statement for FY
2012. Improvements are still needed in the areas of system and application access and related access
privileges, password management, configuration and vulnerability management, restriction of network
services, and integrity of web applications.
Our FY 2012 audit disclosed information system security deficiencies similar in type and risk level to our
findings in prior years. We identified similar weaknesses at sites where we had not reviewed security
controls in the prior year. Specifically, we noted weaknesses within layered security controls for network
servers and devices, desktop systems, and business applications. We identified multiple instances of easily
guessed login credentials or unrestricted access controls on network systems that could permit
unauthorized access to those systems and their data. We also found weak account management and
monitoring controls for review, approval, provisioning, and termination of administrative and user
accounts that may increase the risk of malicious or unauthorized access to systems and data.
In the area of configuration and vulnerability management, we identified deficiencies in the patch
management process for timely and secure installation of critical software patches, with numerous
instances in which security patches had not been applied to correct known vulnerabilities more than three
months after the patches became available. The affected systems included workstations used by financial
application users and system administrators with privileged levels of access to financial systems and other
network systems. We also noted numerous weaknesses in web application integrity as a result of design
flaws in those applications. We identified web applications that did not properly validate the form or
content of input data against an application’s database, which could result in unauthorized access to
application functionality, sensitive data stored in the applications, and other network systems and
applications.
                                                                               Attachment (continued)




While many of these cybersecurity weaknesses were corrected immediately after we identified and
reported them to site management, deficiencies in the process and procedures for identifying, monitoring,
and remediating such deficiencies have continued from prior years. We also identified inconsistent risk
management practices at several sites and noted that site management had not established a risk acceptance
process to fully document acceptance of risk. We further noted that multiple sites were continuing to
develop and implement site-level Implementation Plans in accordance with the Department’s Risk
Management Approach (RMA) to address these weaknesses. However, these risk management
enhancements were incomplete at the time of our testing.
The Department’s Office of Inspector General (OIG) reported on these deficiencies in its evaluation report
on The Department’s Unclassified Cyber Security Program – 2012, dated November 2012. The OIG noted
that identified weaknesses occurred, in part, because Departmental entities had not ensured that
cybersecurity requirements were fully developed and implemented. The OIG reported that programs and
sites had not always effectively monitored performance to ensure that appropriate controls were in place.
The OIG noted that the Department’s Plans of Action and Milestones were not always effectively used to
report, prioritize, and track cybersecurity weaknesses through remediation. The OIG also reported
deficiencies in physical and logical access controls and configuration management at several sites where,
even when policies and procedures were established, implementation of those policies and procedures were
not aligned with the Federal requirements.
The identified vulnerabilities and control weaknesses in unclassified network and information systems
increase the possibility that malicious destruction or alteration of data or unauthorized processing could
occur. Because of our concerns, we performed supplemental procedures and identified compensating
controls that mitigate the potential effect of these security weaknesses on the integrity, confidentiality, and
availability of data in the Department’s financial applications.
During FY 2012, the Department had taken steps to enhance its unclassified cybersecurity program under
the collaborative leadership of the DOE Information Management Governance Council (IMGC) and IMGC
Working Group. The Joint Cybersecurity Coordination Center (JC3) Governance Model was approved in
May 2012 to implement the requirements of DOE Order 205.1B related to continuous monitoring and risk
management. The Department also continued ongoing efforts to improve awareness of Cybersecurity
initiatives, including role-based training and workforce development, and to promote effective channels of
communication and collaboration.
Recommendation
Because the D&D Fund does not have the ability to affect changes on the Department’s network security,
no further action is needed by the D&D Fund other than to monitor the progress of the Office of the Chief
Information Officer (OCIO). While progress has been made, continued efforts are needed to effectively
manage the evolving nature of cybersecurity threats, including strengthening the management review
process and monitoring of field sites to ensure the adequacy of cybersecurity program performance; fully
implementing revised and ongoing risk management processes; and expanding the use of automated tools
in the resolution of the vulnerabilities and control weaknesses described above to ensure that systems are
properly configured, implemented, and updated throughout the lifetime of those systems.
                                                                        Attachment (continued)




Therefore, we recommend that the Under Secretary for Nuclear Security, Under Secretary of Energy, and
the Under Secretary for Science, in coordination with the Department and National Nuclear Security
Administration Chief Information Officers, fully implement policies and procedures to meet Federal
cybersecurity standards, protect networks and information systems against unauthorized access, and
implement an adequate performance monitoring program, such as the use of periodic evaluations by
Headquarters management, to improve the effectiveness of sites’ cybersecurity program implementation.
Detailed recommendations to address the issues discussed above have been separately reported to the
cognizant management officials.
Management’s Response
Management concurs with the recommendation as presented, with the recognition that the Department’s
OCIO is the lead office in affecting change on the Department’s information systems.
                                                                        Attachment (continued)




                                Independent Auditors’ Report
                         Exhibit III – Status of Prior Year Findings


  Material weakness or significant deficiency
from FY 2011 (with parenthetical disclosure of
             year first reported)                          Status at September 30, 2012
Unclassified Information System Security (2001)       Reported in Exhibit II as a significant
                                                        deficiency for FY 2012
Environment Liability Estimates (2010)                Reported in Exhibit I as a material
                                                        weakness for FY 2012
Statement of Budgetary Resources (FY 2011)            Finding closed
                                                                                  Attachment (continued)



                            UNITED STATES DEPARTMENT OF ENERGY
                           OFFICE OF ENVIRONMENTAL MANAGEMENT
                         URANIUM ENRICHMENT DECONTAMINATION AND
                                   DECOMMISSIONING FUND
                                                   Balance Sheets
                                         As of September 30, 2012 and 2011
                                                   (In thousands)


                                  Assets                                       2012              2011
Entity assets:
  Intragovernmental:
      Fund balance with treasury                                        $        17,448            74,016   
      Investments, net                                                        4,152,702         4,543,751   
      Accrued interest receivable                                                35,898            44,218   
      Other intragovernmental assets                                             55,991            51,173   
              Total entity assets                                       $     4,262,039         4,713,158   
                     Liabilities and Net Position
Liabilities covered by budgetary resources:
   Decontamination and decommissioning                                  $        38,589            61,672   
   Remedial action                                                                4,517            14,103   
   Uranium and thorium licensee claims                                               —             15,003   
   Accounts payable and other accruals                                          101,068           145,550   
   DOE interfund accounts payable                                                   307             1,414   
              Total funded liabilities                                          144,481           237,742   
Liabilities not covered by budgetary resources:
   Decontamination and decommissioning                                       13,424,384        14,029,569   
   Remedial action                                                              106,453            75,805   
   Uranium and thorium licensee claims                                          197,815           194,361   
              Total unfunded liabilities                                     13,728,652        14,299,735   
              Total liabilities                                              13,873,133        14,537,477   
Net position:
  Unexpended appropriations – other funds                                         8,182            50,245   
  Cumulative results of operations – earmarked funds                         (9,619,276)       (9,874,564)  
              Total net position                                             (9,611,094)       (9,824,319)  
              Total liabilities and net position                        $     4,262,039         4,713,158   


See accompanying notes to financial statements.
                                                                                  Attachment (continued)



                            UNITED STATES DEPARTMENT OF ENERGY
                           OFFICE OF ENVIRONMENTAL MANAGEMENT
                         URANIUM ENRICHMENT DECONTAMINATION AND
                                   DECOMMISSIONING FUND
                                              Statements of Net Cost
                             For the fiscal years ended September 30, 2012 and 2011
                                                      (In thousands)


                                                                               2012              2011
Environmental quality program costs:
  Decontamination and decommissioning                                  $        468,171          619,171   
  Storage and disposition                                                         9,428           21,093   
  Uranium and thorium licensee claims                                            15,006            9,287   
Postclosure liability administration                                             25,387           18,722   
               Net program costs                                                517,992          668,273   
Cost applied to the reduction of legacy liabilities                            (500,599)        (655,128)  
Costs not assigned                                                               94,557          679,750   
Exchange revenues                                                              (276,634)        (316,844)  
               Net (revenue from) cost of operations                   $       (164,684)         376,051   


See accompanying notes to financial statements.
                                                                                                                              Attachment (continued)


                                                          UNITED STATES DEPARTMENT OF ENERGY
                                                         OFFICE OF ENVIRONMENTAL MANAGEMENT
                                                       URANIUM ENRICHMENT DECONTAMINATION AND
                                                                 DECOMMISSIONING FUND
                                                                 Statements of Changes in Net Position
                                                         For the fiscal years ended September 30, 2012 and 2011
                                                                             (In thousands)


                                                                                                                                     2012
                                                                                                              Earmarked
                                                                                                                funds             Other funds        Total
Cumulative results of operations:
  Beginning balance                                                                                      $        (9,874,564)               —       (9,874,564)  
Budgetary financing sources:
  Appropriations used                                                                                                     —            42,063           42,063   
  Net transfers in without reimbursement                                                                              46,551               —            46,551   
Other financing sources:
  Imputed financing from costs absorbed by others                                                                      1,990                —            1,990   
  Other appropriations transferred from DOE, net of adjustments                                                           —                 —               —    
              Total financing sources                                                                                 48,541           42,063           90,604   
Net revenue from (cost of) operations                                                                               206,747           (42,063)        164,684   
              Net change                                                                                            255,288                 —         255,288   
              Total cumulative results of operations                                                              (9,619,276)               —       (9,619,276)  
Unexpended appropriations:
  Beginning balance                                                                                                       —            50,245           50,245   
Budgetary financing sources:
  Appropriations used                                                                                                     —           (42,063)         (42,063)  
  Appropriations transferred                                                                                              —                —                —    
              Total budgetary financing sources                                                                           —           (42,063)         (42,063)  
              Total unexpended appropriations                                                                             —             8,182            8,182   
              Net position                                                                               $        (9,619,276)           8,182       (9,611,094)  


                                                                                                                                     2011
                                                                                                              Earmarked
                                                                                                                funds             Other funds        Total
Cumulative results of operations:
  Beginning balance                                                                                      $        (9,705,275)               —       (9,705,275)  
Budgetary financing sources:
  Appropriations used                                                                                                     —           125,061         125,061   
  Net transfers in without reimbursement                                                                              40,413               —           40,413   
Other financing sources:
  Imputed financing from costs absorbed by others                                                                      7,655                —            7,655   
  Other appropriations transferred from DOE, net of adjustments                                                       33,633                —           33,633   
              Total financing sources                                                                                 81,701          125,061         206,762   
Net cost of operations                                                                                             (250,990)         (125,061)       (376,051)  
              Net change                                                                                           (169,289)                —        (169,289)  
              Total cumulative results of operations                                                              (9,874,564)               —       (9,874,564)  
Unexpended appropriations:
  Beginning balance                                                                                                       —           175,306         175,306   
Budgetary financing sources:
  Appropriations used                                                                                                     —          (125,061)       (125,061)  
  Appropriations transferred                                                                                              —                —               —    
              Total budgetary financing sources                                                                           —          (125,061)       (125,061)  
              Total unexpended appropriations                                                                             —            50,245           50,245   
              Net position                                                                               $        (9,874,564)          50,245       (9,824,319)  


See accompanying notes to financial statements.
                                                                                  Attachment (continued)



                           UNITED STATES DEPARTMENT OF ENERGY
                          OFFICE OF ENVIRONMENTAL MANAGEMENT
                        URANIUM ENRICHMENT DECONTAMINATION AND
                                  DECOMMISSIONING FUND
                                       Statements of Budgetary Resources
                             For the fiscal years ended September 30, 2012 and 2011
                                                  (In thousands)


                                                                               2012              2011
Budgetary resources:
  Unobligated balance brought forward, October 1                        $             80           10,298   
  Recoveries of prior year unpaid obligations                                         —                22   
        Unobligated balance from prior year budget authority, net                     80           10,320   
  Budget authority, appropriations                                              472,930           508,000   
  Temporarily not available pursuant to public law                                 (750)          (10,916)  
              Total budgetary resources                                 $       472,260           507,404   
Status of budgetary resources:
   Obligations incurred — direct                                        $       472,238           507,324   
   Unobligated balance, end of year:
      Apportioned                                                                     —                 58   
      Unapportioned                                                                   22                22   
        Total unobligated balance, end of year                                        22                80   
              Total budgetary resources                                 $       472,260           507,404   
Change in obligated balance:
  Unpaid obligations, brought forward, October 1                        $       241,506           564,685   
  Obligations incurred                                                          472,238           507,324   
  Outlays, gross                                                               (563,889)         (688,149)  
  Recoveries of prior year unpaid obligations                                        —           (142,354)  
              Obligated balance, unpaid obligations, end of year, net   $       149,855           241,506   
Budget authority and outlays, net:
             Budget authority, net                                      $       472,180           497,084   
  Outlays, gross                                                        $       563,889           688,149   
  Distributed offsetting receipts                                              (159,238)         (173,860)  
              Outlays, net                                              $       404,651           514,289   


See accompanying notes to financial statements.
                                                                                     Attachment (continued)




(1)   Summary of Significant Accounting Policies
      (a)   Reporting Entity
            The Energy Policy Act of 1992 (Energy Policy Act) requires the United States (U.S.) Department of
            Energy (the Department) to retain responsibility for the costs of environmental remediation resulting
            from the U.S. Government’s (Government) operation of the three gaseous diffusion facilities
            (Diffusion Facilities) located in Oak Ridge, Tennessee; Paducah, Kentucky; and Portsmouth, Ohio,
            prior to that date.

            The Energy Policy Act established the Uranium Enrichment Decontamination and Decommissioning
            Fund (D&D Fund) within the Department as of October 24, 1992 to pay for the costs of
            decontaminating and decommissioning the Diffusion Facilities (note 4). The Energy Policy Act, as
            amended, also provides for payment of the costs of remedial action at the Diffusion Facilities, to the
            extent that the amount available in the D&D Fund is sufficient (note 5). The Energy Policy Act
            further provides that the D&D Fund will reimburse licensees operating uranium or thorium
            processing sites for the costs of environmental remediation at those sites, subject to maximum
            reimbursement limits (note 6). To pay for these activities, the Energy Policy Act and subsequent
            legislation authorized funding over a 15-year period, adjusted annually using the Consumer Price
            Index for All Urban Consumers (Consumer Price Index), as published by the Department of Labor.
            The funding is to be obtained from Government appropriations (note 7) and from assessments on
            domestic utilities that were completed in Fiscal Year (FY) 2007.

            Government contributions to the Fund were scheduled to end with the FY 2007 contribution.
            However, Government appropriations and resulting Government contributions through
            September 30, 2007 were approximately $918.6 million less than authorized by the Energy Policy
            Act. The ability of the D&D Fund to fulfill its responsibilities is contingent upon the receipt of these
            contributions. Therefore, the Department continued to ask Congress for annual Government
            contributions to meet the Government’s obligation. Congress provided additional contributions in
            FYs 2008 and 2009, and also designated $390 million of FY 2009 American Recovery and
            Reinvestment Act (ARRA) funding for the Fund’s cleanup mission. These follow-on actions have
            satisfied the Government’s original obligation to the Fund.

            The ARRA funding is a separate appropriation from the D&D Fund and is not available for
            investment in Treasury securities like the normal D&D Fund appropriations. Therefore, the ARRA
            funding is neither a deposit into the Fund nor additional spending authority from the Fund. The
            ARRA funding, however, does function as a contribution to the Fund’s cleanup mission by paying
            for work scope that would otherwise have to be paid from the D&D Fund. Since the ARRA funding
            provides a dollar-for-dollar reduction in the required future outlays from the D&D Fund’s invested
            balances, the Department recognizes the $390 million of ARRA funding as an offset to the
            Government’s contribution shortfall.
                                                                              Attachment (continued)




      Since the Department considers the D&D Fund as an entity to be broader than just the invested
      balances with Treasury, the financial statement amounts capture both the traditional D&D Fund
      appropriation and these designated ARRA funds.

(b)   Basis of Presentation
      These financial statements have been prepared from the accounting records of the D&D Fund in
      conformance with accounting principles generally accepted in the United States of America.

      The Department’s expenses are summarized in its statement of net cost by strategic goal and
      objective. The Secure Our Nation strategic goal includes, among other activities, all D&D Fund
      expenses. The purpose of the activities within this strategic goal includes reducing the footprint of
      contaminated sites, while bringing to bear the Department’s formidable research and development
      assets to develop and deploy transformational technologies.

      The Department’s headquarters, field offices, and the management and integrating (M&I) contractor
      (at Oak Ridge) and nonintegrating contractors conducting environmental remediation activities at the
      Department’s facilities discussed in note 1(a) record D&D Fund activity in their accounting systems.
      The M&I contractor integrates its accounting system with the Department through the use of
      reciprocal accounts. The M&I contractor is required to comply with Departmental accounting
      practices and procedures, which provide for the unique identification of D&D Fund transactions.
      These financial statements are prepared by extracting and adjusting D&D Fund-related data from the
      financial records of the Department and the M&I contractor.

(c)   Basis of Accounting
      The D&D Fund’s financial statements are prepared using the accrual method of accounting. The
      accrual method of accounting requires recognition of the financial effects of transactions, events, and
      circumstances in the periods when those transactions, events, and circumstances occur, regardless of
      when cash is received or paid. The D&D Fund also uses budgetary accounting to facilitate
      compliance with legal constraints and to monitor its budget authority at the various stages of
      execution, including allotment, obligation, and eventual outlay.

(d)   Earmarked Funds
      The D&D Fund has adopted Statement of Federal Financial Accounting Standards (SFFAS) No. 27,
      Identifying and Reporting Earmarked Funds, which requires separate identification of earmarked
      funds on the balance sheets, statements of changes in net position, and in the notes. Earmarked funds
      are financed by specifically identified revenues, often supplemented by other financing sources,
      which remain available over time. These specifically identified revenues and other financing sources
      are required by statute to be used for designated activities, benefits, or purposes, and must be
      accounted for separately from the Government’s general revenues.
                                                                             Attachment (continued)




(e)   Fund Balance with Treasury
      Funds with the Treasury primarily represent funds left uninvested on the last day of the fiscal year
      (September 30) to cover any unanticipated disbursements that occur after the September 30
      overnight investment has been made with Treasury. This approach helps the D&D Fund avoid
      ending the fiscal year with a negative cash balance due to unanticipated disbursements.

(f)   Investments
      The Energy Policy Act requires the D&D Fund to invest in Treasury obligations. The D&D Fund’s
      investments in Treasury securities are classified as held-to-maturity. Held-to-maturity securities are
      those securities that the D&D Fund has the ability and intent to hold until maturity. Held-to-maturity
      securities are recorded at amortized cost, adjusted for the amortization or accretion of premiums or
      discounts. Premiums and discounts are amortized or accreted over the life of the related security as
      an adjustment to yield using the effective-interest method.

(g)   Plant and Equipment
      Plant and equipment acquired by the D&D Fund are charged to operations when purchased, unless
      the plant or equipment will be used for purposes other than environmental remediation. All plant and
      equipment held by the D&D Fund at September 30, 2012 and 2011 are used in environmental
      remediation.

(h)   Environmental Remediation Liabilities
      The D&D Fund’s environmental remediation liabilities are recorded at current cost, which is the
      amount that would be paid if all equipment, facilities, and services included in the related cost
      estimates were acquired during the current period. Each fiscal year, the liabilities are increased for
      inflation, reduced by current expenditures, and adjusted for estimated cost increases or decreases.

(i)   Government Appropriations
      Government appropriations are recognized at the later of the beginning of each fiscal year, when
      appropriations may be apportioned to the Department by the Office of Management and Budget
      (OMB), or the date the appropriations legislation is signed into law.

(j)   Imputed Costs and Financing Sources
      Certain salaries, employee benefits, and other costs allocable to the D&D Fund are funded under
      separate appropriations, and are included in the accompanying financial statements through
      allocations by entities outside the D&D Fund in accordance with SFFAS No. 4, Managerial Cost
      Accounting Concepts for the Federal Government. An equivalent amount is included in imputed
      financing.
                                                                                     Attachment (continued)




      (k)   Use of Estimates
            The preparation of financial statements in conformity with accounting principles generally accepted
            in the United States of America requires management to make estimates and assumptions that affect
            the reported amounts of assets and liabilities and disclosure of contingent assets and liabilities at the
            date of the financial statements and the reported amounts of revenues and expenses during the
            reporting period. Actual results could differ from those estimates.

      (l)   Tax Status
            The D&D Fund, as a Federal entity, is not subject to Federal, state, or local income taxes.
            Accordingly, no provision for income taxes is recorded in the accompanying financial statements.

      (m)   Comparative Data
            In fiscal year 2012, changes to the presentation of the Statement of Budgetary Resources were made,
            in accordance with Guidance provided in OMB Circular No. A-136, and as such, fiscal year 2011
            activity and balances reported on the Statement of Budgetary Resources have been reclassified to
            conform to the presentation in the current year.

(2)   Fund Balance with Treasury
      A summary of the status of fund balances with the U.S. Treasury for appropriated funds as of
      September 30, 2012 and 2011 is as follows (in thousands):

                                                                                 2012                  2011
      Unobligated budgetary resources:
        Available                                                        $              —                     58   
        Unavailable                                                                     22                    22   
      Obligated balance not yet disbursed:
        Undelivered orders                                                         48,479               94,541   
        Accounts payable and other liabilities                                    101,375              146,964   
        Budgetary resources invested in Treasury securities                      (132,428)            (167,569)  
                    Fund balance with Treasury                           $         17,448               74,016   
                                                                                    Attachment (continued)




(3)   Investments, Net
      The D&D Fund invests in nonmarketable market-based Treasury securities. All Treasury securities held at
      September 30, 2012 and 2011 are classified as held-to-maturity. The components of Treasury securities
      held as of September 30, 2012 and 2011 are as follows (in thousands):
                                                                                 2012               2011
      Face value                                                        $       4,021,665          4,372,476   
      Unamortized premiums                                                        131,265            173,534   
      Unamortized discounts                                                          (228)            (2,259)  
                                                                                4,152,702          4,543,751   
      Unrealized gains                                                           107,802             174,077   
                    Total                                              $        4,260,504          4,717,828   


      The market value of Treasury securities held as of September 30, 2012 and 2011 is as follows
      (in thousands):
                                                                                  2012                2011
      Maturity:
        Maturing within 1 year                                              $    1,101,355          1,171,459   
        Maturing after 1 year through 5 years                                    3,159,149          3,546,369   
        Maturing after 5 years through 10 years                                         —                  —    
                    Total                                                   $    4,260,504          4,717,828   


      During FY 2012 and FY 2011, the D&D Fund recognized interest revenue of $108 million and
      $142 million, respectively.

      The Government does not set aside assets to pay for expenditures associated with the funds for which the
      Department holds Treasury securities. These Treasury securities are an asset to the Department and a
      liability to Treasury. Because the Department and Treasury are both parts of the Government, these assets
      and liabilities offset each other from the standpoint of the Government as a whole. For this reason, they do
      not represent an asset or a liability in the Government-wide financial statements.

      Treasury securities provide the Department with authority to draw upon the Treasury to make
      expenditures, subject to available appropriations and OMB apportionments. When the Department requires
      redemptions of these securities, the Government finances those expenditures out of accumulated cash
      balances by raising taxes or other receipts, by borrowing from the public or repaying less debt, or by
      curtailing other expenditures. This is the same way the Government finances all other expenditures.
                                                                                   Attachment (continued)




(4)   Decontamination and Decommissioning
      The Department’s estimate of the costs to decontaminate and decommission the Diffusion Facilities is
      based on an aggressive contracting strategy intended to maximize cost savings and enhance scheduling
      through the use of performance-based contracts. Environmental remediation, which includes both
      decontamination and decommissioning and remedial action (note 5) activities, will be completed through
      fixed-price contracts where appropriate.

      Changes in the liability for decontamination and decommissioning from October 1, 2010 through
      September 30, 2012 are summarized as follows (in thousands):
      Balance, October 1, 2010                                                               $     14,177,275   
         Provision for inflation                                                                      199,900   
         Decontamination and decommissioning costs incurred                                          (576,517)  
         Adjustment to new cost estimate                                                              290,583   
      Balance, September 30, 2011                                                                  14,091,241   
         Provision for inflation                                                                      232,506   
         Decontamination and decommissioning costs incurred                                          (462,137)  
         Adjustment to new cost estimate                                                             (398,637)  
      Balance, September 30, 2012                                                            $     13,462,973   


      Of the total liability of $13,463 million for decontamination and decommissioning as of September 30,
      2012, $39 million is covered by appropriations for current and previous fiscal years (budgetary resources)
      and $13,424 million is not covered by budgetary resources. Of the total liability of $14,091 million for
      decontamination and decommissioning as of September 30, 2011, $62 million is covered by appropriations
      for current and previous fiscal years (budgetary resources) and $14,029 million is not covered by
      budgetary resources.

      Approximately $27 million of the FY 2012 costs incurred and approximately $117 million of the FY 2011
      costs incurred were from ARRA funding rather than the D&D Fund’s investment balances. As of
      September 30, 2012 and 2011, approximately $8 million and $35 million, respectively, of the $320 million
      designated by ARRA for D&D Fund cleanup scope remains available to address the liability. These
      amounts are included in the $39 million and $62 million of budgetary resources at September 30, 2012 and
      2011, respectively, discussed above. Note 1(a) to the financial statements provides additional discussion on
      the ARRA funding.

      Because the decontamination and decommissioning work at the gaseous diffusion facility located in Oak
      Ridge is scheduled to be completed in FY 2024 and the decontamination and decommissioning work at the
      Paducah and Portsmouth gaseous diffusion facilities is currently estimated to extend until 2044, the length
      of time over which the work will be performed and the uncertainty inherent in the estimating process create
      significant uncertainty as to the actual cost of the work. In addition, because the estimate on which the
                                                                                    Attachment (continued)




      recorded liability is based does not include an estimate of the impact of inflation on such costs, the actual
      costs may be significantly higher than the recorded liability. The Department is presently unable to
      determine the impact of time and inflation on the liability for decontamination and decommissioning costs.

(5)   Remedial Action
      The Energy Policy Act provides that the annual cost of remedial action at the Diffusion Facilities will be
      paid from the D&D Fund to the extent the amount available in the D&D Fund is sufficient. To the extent
      the amount in the D&D Fund is insufficient to pay remedial action costs, the Energy Policy Act provides
      that the Department will be responsible for such costs.

      Because the Energy Policy Act places primary responsibility for remedial action costs with the Department
      if sufficient resources are not available in the D&D Fund, the D&D Fund’s recorded liability for remedial
      action at the end of each fiscal year includes only the funding for such costs provided by Congress in the
      D&D Fund appropriation for the succeeding fiscal year, plus the unexpended portion of such
      appropriations for current and previous fiscal years. The D&D Fund will make additional accruals of
      remedial action costs if Congress appropriates funds for that purpose.

      Changes in the liability for remedial action from October 1, 2010 through September 30, 2012 are
      summarized as follows (in thousands):

      Balance, October 1, 2010                                                                $        157,489   
         Provision for inflation and remedial action costs                                              15,577   
         Remedial action costs incurred                                                                (83,158)  
      Balance, September 30, 2011                                                                       89,908   
         Provision for inflation and remedial action costs                                              45,070   
         Remedial action costs incurred                                                                (24,008)  
      Balance, September 30, 2012                                                             $        110,970   


      Of the total liability of $111 million for remedial action as of September 30, 2012, $5 million is covered by
      budgetary resources and $106 million is not covered by budgetary resources. Of the total liability of
      $90 million for remedial action as of September 30, 2011, $14 million is covered by budgetary resources
      and $76 million is not covered by budgetary resources.

      The estimated future cost of remedial action at the Diffusion Facilities, which is only recorded in the
      accompanying financial statements to the extent described above, is approximately $2,744 million and
      $2,668 million as of September 30, 2012 and 2011, respectively. The remaining liability for the estimated
      future cost of remedial action at the Diffusion Facilities is recorded by the Department. Subsequent to
      September 30, 2012, the Paducah life cycle cost estimate was revised to reflect an extension of the
      remedial action completion date from FY 2019 to FY 2032. The potential impact on the environmental
                                                                                   Attachment (continued)




      liability balances for Paducah is an increase of approximately $900 million, which will be updated as more
      information becomes available. The estimate does not include an estimate of the impact of inflation on the
      cost of the work; therefore, the actual cost may be significantly higher than the estimate. There is also
      uncertainty with respect to whether Congressional appropriations will be received at the level assumed by
      the estimate, and the uncertainty inherent in the estimating process. The Department is presently unable to
      determine the impact of these factors on the estimated remedial action costs.

(6)   Uranium and Thorium Licensee Claims
      The Energy Policy Act, as amended, provides that the D&D Fund will reimburse licensees operating
      uranium or thorium processing sites for the costs of environmental remediation at those sites, subject to
      maximum reimbursements of $350 million for the uranium licensees and $365 million for the thorium
      licensee, plus adjustments for inflation.

      As of September 30, 2012 and 2011, the Department has approved for payment $681 million and
      $662 million, respectively, of uranium and thorium licensee claims, and has paid $643 million and
      $628 million, respectively, to licensees. Approved but unpaid claims will be paid to licensees when
      additional funds are appropriated for that purpose. The Department receives additional claims from
      licensees as remediation occurs, and expects that total reimbursements of uranium and thorium licensee
      claims will reach the limits set by legislation.

      The D&D Fund’s liability for reimbursement of uranium and thorium licensee claims consists of the
      maximum reimbursements authorized by legislation less amounts paid, adjusted annually for inflation.
      Changes in the liability for reimbursement of uranium and thorium licensee claims from October 1, 2010
      through September 30, 2012 are summarized as follows (in thousands):

      Balance, October 1, 2010                                                               $        215,597   
         Provision for inflation                                                                        3,040   
         Claims reimbursed                                                                             (9,273)  
      Balance, September 30, 2011                                                                     209,364   
         Provision for inflation                                                                        3,454   
         Claims reimbursed                                                                            (15,003)  
      Balance, September 30, 2012                                                            $        197,815   


      Of the total liability of $198 million as of September 30, 2012, $0 million is covered by budgetary
      resources and $198 million is not covered by budgetary resources. Of the total liability of $209 million as
      of September 30, 2011, $15 million is covered by budgetary resources and $194 million is not covered by
      budgetary resources.
                                                                                   Attachment (continued)




      All $15 million of FY 2012 reimbursements and $9 million of FY 2011 reimbursements were paid from
      ARRA funding rather than the D&D Fund’s investment balances. As of September 30, 2012, the total of
      $70 million designated by ARRA for uranium and thorium reimbursements has been expended for this
      purpose. Note 1(a) to the financial statements provides additional discussion on the ARRA funding.

(7)   Government Appropriations
      The Energy Policy Act and subsequent amendments require annual Government appropriations to the
      D&D Fund through FY 2007, equal to the difference between authorized funding, adjusted annually for
      inflation using the Consumer Price Index, and the assessment against domestic utilities. Authorized
      funding was initially established at $480.0 million per year by the Energy Policy Act. That amount
      remained unchanged until FY 1999, when legislation increased authorized funding to $488.3 million per
      year. Legislation enacted during FY 2002 increased authorized funding to $518.2 million per year.

      The ability of the D&D Fund to fulfill its responsibilities is contingent upon receipt of funds from these
      sources. The D&D Fund received a payment of $452.0 million in FY 2007 from Defense Environmental
      Restoration and Waste Management. This was the final Government payment authorized by the legislation
      discussed above.

      Cumulative Government appropriations received through FY 2007 of $5,362.4 million were less than the
      full amount authorized by the Energy Policy Act of $6,281.0 million, resulting in funding authorized but
      not received of $918.6 million as of September 30, 2007. The ability of the D&D Fund to fulfill its
      responsibilities is contingent upon the receipt of these contributions. Therefore, the Department continued
      to ask Congress for annual Government contributions to meet the Government’s obligation. Congress
      provided additional contributions in FY 2008 and FY 2009, and also designated $390 million of FY 2009
      ARRA funding for the Fund’s cleanup mission. These follow-on actions have satisfied the Government’s
      original obligation to the Fund.

      The ARRA funding is a separate appropriation from the D&D Fund and is not available for investment in
      Treasury securities like the normal D&D Fund appropriations. Therefore, the ARRA funding is neither a
      deposit into the Fund nor additional spending authority from the Fund. The ARRA funding does, however,
      function as a contribution to the Fund’s cleanup mission by paying for work scope that would otherwise
      have to be paid from the D&D Fund. Since the ARRA funding provides a dollar-for-dollar reduction in the
      required future outlays from the D&D Fund’s invested balances, the Department recognizes the
      $390 million of ARRA funding as an offset to the Government’s contribution shortfall.
                                                                                   Attachment (continued)




(8)   Pension and Postretirement Benefit Liabilities
      The D&D Fund’s primary integrated contractor maintains a defined benefit pension plan and is a party to
      two defined benefit postretirement (PRB) plans, under which they promise to pay participants specified
      benefits, such as a percentage of the final average pay for each year of service, or a percentage of actual
      medical expenses in retirement. The D&D Fund follows multiemployer accounting for these plans in
      accordance with Statement of Financial Accounting Standards (SFAS) No. 87, Employers’ Accounting for
      Pensions, and SFAS No. 106, Employers’ Accounting for Postretirement Benefits Other Than Pensions.
      The D&D Fund is required to reimburse the contractor for its share of the annual contractor contributions
      to those plans based on planned funding between the EM Defense Funds and the D&D Fund as determined
      by the Department’s budget planning assumptions. Payment of such amounts is included as program cost
      on the statements of net cost. For the years ended September 30, 2012 and 2011, the D&D Fund provided
      funding of approximately $10 million and $5 million to the contractor’s defined benefit pension plan,
      respectively, and $11 million and $9 million related to PRB plans, respectively.
                                                                                              Attachment (continued)




(9)      Earmarked Funds
                                                              FY 2012                                     FY 2011
                                               Earmarke d                                 Earmarke d
                                                 funds      O the r funds      Total        funds       O the r funds      Total
Balance she e t
  Assets:
    Fund balance with T reasury            $       4,990        12,458          17,448         4,969        69,047          74,016 
    Investments                                4,152,702            —        4,152,702     4,543,751            —        4,543,751 
    Accrued interest receivable                   35,898            —           35,898        44,218            —           44,218 
    Other intragovernmental assets                55,991            —           55,991        51,173            —           51,173 
           T otal assets                   $   4,249,581        12,458       4,262,039     4,644,111        69,047       4,713,158 
  Liabilities and net position:
    Environmental liabilities              $ 13,771,758             —       13,771,758    14,390,513           —        14,390,513 
    Accounts payable                             96,792          4,276         101,068       126,748        18,802         145,550 
    Other liabilities                               307             —              307         1,414            —            1,414 
    Unexpended appropriations                        —           8,182           8,182            —         50,245          50,245 
    Cumulative results of operations         (9,704,034)        84,758      (9,619,276)   (9,874,564)           —       (9,874,564)
              T otal liabilities and
                 net position              $   4,164,823        97,216       4,262,039     4,644,111        69,047       4,713,158 
State me nt of ne t costs
  Program costs                            $     475,929        42,063        517,992       543,212        125,061        668,273 
  Costs applied to the reduction
     of legacy liabilities                      (500,599)            —       (500,599)     (655,128)             —       (655,128)
  Costs not assigned                              94,557             —         94,557       679,750              —        679,750 
  Exchange revenues                             (276,634)            —       (276,634)     (316,844)             —       (316,844)
             Net (revenue from)
                cost of operations         $    (206,747)       42,063       (164,684)      250,990        125,061        376,051 
State me nt of change s in ne t position
  Cumulative results of operations,
     beginning balance                     $ (9,874,564)            —       (9,874,564)   (9,705,275)           —       (9,705,275)
  Appropriations used                                —          42,063          42,063            —        125,061         125,061 
  Net transfers-in without
     reimbursement                                46,551             —          46,551        40,413             —          40,413 
  Imputed financing from costs
     absorbed                                      1,990             —           1,990         7,655             —           7,655 
  Other appropriations transferred
     from DOE                                         —             —              —         33,633             —          33,633 
  Net revenue from (cost of) operations          206,747       (42,063)       164,684      (250,990)      (125,061)      (376,051)
  Cumulative results of operations,
     ending balance                        $ (9,619,276)             —      (9,619,276)   (9,874,564)            —      (9,874,564)
  Unexpended appropriations,
    beginning balance                      $          —         50,245          50,245            —        175,306        175,306 
  Appropriations received                             —             —               —             —             —              —
  Appropriations used                                 —        (42,063)        (42,063)           —       (125,061)      (125,061)
  Appropriations transferred in/out                   —             —               —             —             —              —
  Unexpended appropriations,
    ending balance                         $          —          8,182           8,182            —         50,245          50,245 
                                                                                   Attachment (continued)




(10)   Reconciliation of Net Cost of Operations to Budget
       The objective of this information is to provide an explanation of the differences between budgetary and
       financial (proprietary) accounting. This is accomplished by means of a reconciliation of budgetary
       obligations and nonbudgetary resources available to the reporting entity with its net cost of operations.

                                                                                       2012               2011
       Resources used to finance activities:
        Obligations incurred                                                   $       472,238             507,324   
          Less offsetting receipts                                                    (159,238)           (173,860)  
          Less spending authority from recoveries                                          —                   (22)  
                 Net obligations                                                       313,000             333,442   
         Imputed financing from costs absorbed by others                                 1,990               7,654   
         Transfers in                                                                   46,551              40,413   
         Other – appropriations transferred from DOE                                       —                33,633   
                  Total resources used to finance activities                           361,541             415,142   
       Resources used to finance items not part of the net
        cost of operations:
          Change in budgetary resources obligated for goods,
            services, and benefits ordered but not yet provided                         46,063             173,744   
          Resources that finance the acquisition of assets                             (47,046)            (53,096)  
          Resources that fund expenses recognized in prior periods                    (500,653)           (656,264)  
          Other resources and adjustments                                                8,320               5,476   
                  Total resources used to finance items not part
                   of the net cost of operations                                      (493,316)           (530,140)  
       Net cost of items that do not require or generate resources
        in current period:
          Increase in unfunded liability estimates                                      92,622             673,233   
          Amortization of premiums and discounts on
            treasury investments                                                        38,063              26,590   
          Other                                                                       (163,594)           (208,774)  
                  Total net cost of items that do not require or
                   generate resources in current period                                (32,909)            491,049   
                  Net (revenue from) cost of operations                        $      (164,684)            376,051   
                                 Attachment (continued)




REQUIRED SUPPLEMENTARY INFORMATION
                                                                             Attachment (continued)




Deferred Maintenance

Deferred maintenance is maintenance that was not performed when it should have been or was scheduled
to be performed and which, therefore, is put off or delayed to a future period. The United States
Department of Energy (the Department) has developed an estimate for deferred maintenance in the amount
of approximately $106 million as of September 30, 2012 for the structures and facilities at the gaseous
diffusion facilities (Diffusion Facilities) located in Oak Ridge, Tennessee; Paducah, Kentucky; and
Portsmouth, Ohio, and has determined that there is no deferred maintenance with respect to capital
equipment at the Diffusion Facilities. In FY 2013, the Department announced that it will cease uranium
enrichment operations at Paducah and the Diffusion Facilities currently leased by the United States
Enrichment Corporation (USEC) will be transitioned back to the Department. While a time line for
completion of this transition has not been finalized, the Department’s estimate for deferred maintenance is
expected to increase as these facilities are returned.

The Department developed its deferred maintenance estimate for buildings and other structures and
facilities using the condition assessment survey (periodic inspections) method, except for some structures
and facilities, such as underground pipe systems, where physical barriers prevent inspection. In such cases,
a deferred maintenance estimate was developed for deficiencies identified during normal operations but not
corrected when scheduled. Where complete condition assessments were not available for all assets,
estimates were extrapolated from results of condition assessments performed for similar assets. Where
appropriate, results from previous condition assessments were adjusted to estimate current conditions.
Deferred maintenance for excess property, including structures and facilities awaiting decontamination and
decommissioning, was reported only where maintenance is needed for worker and public health and safety
concerns. In accordance with standards identified by the National Association of College and University
Business Officers, the Department has designated the acceptable operating condition standard as a Facility
Condition Index of less than or equal to 5%.
                                                                  IG Report No. OAS-FS-14-07

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report that would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:
                             Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
